               OFFICE OF
        THE INSPECTOR GENERAL

   SOCIAL SECURITY ADMINISTRATION


NORTHVIEW VILLAGE, INC., AN ORGANIZATIONAL
          REPRESENTATIVE PAYEE
 FOR THE SOCIAL SECURITY ADMINISTRATION

           June 2012   A-07-11-01137




  AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY

MEMORANDUM

Date:      June 21, 2012                                                                 Refer To:

To:        Carolyn L. Simmons
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Northview Village, Inc., an Organizational Representative Payee for the Social Security
           Administration (A-07-11-01137)


           OBJECTIVES
           Our objectives were to determine whether Northview Village, Inc., (1) had effective
           safeguards over the receipt and disbursement of Social Security benefits, (2) used and
           accounted for Social Security benefits in accordance with Social Security Administration
           (SSA) policies and procedures, and (3) adequately protected beneficiaries’ personally
           identifiable information (PII).

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’ payments
           from the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
           Security Income (SSI) programs. 1 A representative payee may be an individual or an
           organization. SSA’s regulations indicate the Agency will select representative payees
           for beneficiaries when representative payments would serve the individuals’ interests. 2
           Representative payees are responsible for managing benefits in the best interest of the
           beneficiary. 3 See Appendix B for representative payee responsibilities.



           1
               Social Security Act §§ 205(j) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j) and 1383(a)(2)(A)(ii).
           2
               20 C.F.R. §§ 404.2001 and 416.601.
           3
             20 C.F.R. §§ 404.2035 and 416.635. Note: We use the term “benefits” to refer to OASDI benefits and
           SSI payments. Likewise, we use the term “beneficiaries” to refer to OASDI beneficiaries and SSI
           recipients.
Page 2 – Carolyn L. Simmons

Northview Village, Inc., (Northview Village) is a for-profit nursing home in St. Louis,
Missouri. As a representative payee, Northview Village received payments under SSA’s
OASDI and SSI programs on behalf of 135 beneficiaries.

We performed this audit at the request of SSA’s Kansas City Regional Office. See
Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
Our audit period was from May 1, 2010 to April 30, 2011. We found that Northview
Village generally had effective safeguards over the receipt and disbursement of Social
Security benefits, used and accounted for Social Security benefits in accordance with
SSA policies and procedures, and adequately protected beneficiaries’ PII.

However, Northview Village could improve its safeguards over the disbursement of
Social Security benefits by (1) following its own internal controls and SSA’s policies and
procedures for disbursements and (2) maintaining sufficient documentation to support
that it uses Social Security benefits in the beneficiaries’ best interests.

We also found that Northview Village did not submit the annual Representative Payee
Report (Form SSA-623) to SSA to account for the benefits of two beneficiaries. Finally,
Northview Village served as the unofficial representative payee for 26 beneficiaries
during the audit period. We are not making formal recommendations on these issues,
but we do bring them to the Agency’s attention in the Other Matters section of this
report.

SAFEGUARDS OVER THE DISBURSEMENT OF BENEFITS

Our review determined that Northview Village’s safeguards over the disbursement of
Social Security benefits were generally effective. However, Northview Village needed to
address some weaknesses in its safeguards. Specifically, Northview Village did not

•   follow its own internal policies or SSA’s policies in the disbursement of beneficiaries’
    funds;
•   maintain ledgers that had sufficient detail; and
•   maintain receipts to support all expenditures.

Internal Controls in Disbursing Funds

Northview Village’s process of disbursing funds to beneficiaries, vendors, and others
needed improvement. Safeguards over disbursements could be more effective if
Northview Village were more diligent in following its own internal control procedures and
SSA’s procedures.
Page 3 – Carolyn L. Simmons

•     Of the 85 checks we reviewed, 13 (15.3 percent) had only 1 signature. 4 Northview
      Village had established a countersignature control but was not consistently using it
      during the audit period. SSA’s procedures suggest a countersignature for all
      checks. 5
•     To close a beneficiary’s trust account after a new representative payee had been
      appointed, Northview Village inappropriately issued an $836 check with the
      beneficiary named as the payee. 6 Northview Village should have sent the funds to
      SSA or to the beneficiary’s successor payee with SSA’s permission. 7

Beneficiaries’ Trust Account Ledgers

Our review of the beneficiaries’ trust account ledgers found they lacked sufficient detail
to determine the legitimacy of the expenditures. Specifically, the beneficiaries’ trust
account ledgers did not have columns for transaction type, check number, check payee
name, and reason for the disbursement. Per SSA guidelines, ledgers should generally
have separate columns identifying the transaction type, transaction date, check number,
check payee name, and reason for disbursement, as well as credits, debits, and a
running balance.

Given the condition of the ledgers, we requested additional documentation from
Northview Village to determine the nature of, and reason for, the expenditures. Based
on the additional documentation, we found that the expenses were legitimate.

Receipts and Other Supporting Documentation

Of the $355,145 Northview Village expended during the audit period for the
50 beneficiaries we reviewed, it did not have receipts or other documentation for
$14,315 (4 percent). 8 We examined Northview Village’s ledgers, canceled checks,
expenditure authorization forms, and cash logs to identify the purpose of the
expenditures. The documentation we reviewed provided information for what appeared
4
    The 13 checks totaling $3,004 ranged in amount from about $21 to $709.
5
  In SSA’s Guide for Organizational Representative Payees 2008 (No. 17-013), page 35, SSA states that,
for adequate review and supervision of accounting functions, the representative payee should establish a
countersignature requirement for all checks or those that exceed a certain threshold.
6
  Giving a large sum of money to a beneficiary whom SSA found incapable of managing funds is contrary
to SSA’s policy and procedures. See SSA, POMS, GN 00502.020.A (December 4, 2007), and
GN 00502.010 (February 25, 2003).
7
    SSA, POMS, GN 00603.055.A (December 6, 2010).
8
  Northview Village gave about $10,597 (74 percent) of the $14,315 to beneficiaries for their cash
allowances. However, Northview Village did not require the beneficiaries to provide receipts to show how
the cash allowances were spent. In addition, we found several large expenditures of $100 or more,
totaling $2,411 (or about 17 percent of the $14,315), which did not have receipts to show how the
beneficiaries’ funds were spent.
Page 4 – Carolyn L. Simmons

to be legitimate purposes, such as allowance money, clothing, and personal items.
Although we cannot confirm what was purchased without receipts, nothing came to our
attention that led us to believe the expenditures were not for the beneficiaries’ needs.

According to SSA, the payee is responsible for keeping accurate and complete records
to show how benefits are used. 9 This includes documentation for large expenditures
and for the beneficiaries’ personal allowances. The representative payee should
maintain receipts for these expenses. Maintenance of this documentation is a
safeguard the representative payee must have in place for all expenditures, regardless
of the monetary value, to show that it spent Social Security benefits for the beneficiaries’
needs. 10

CONCLUSION AND RECOMMENDATIONS
We found that Northview Village generally had effective safeguards over the receipt and
disbursement of Social Security benefits, used and accounted for Social Security
benefits in accordance with SSA policies and procedures, and adequately protected
beneficiaries’ PII. However, Northview Village could improve the effectiveness of its
safeguards over the disbursement of Social Security benefits. Therefore, we
recommend that the SSA Regional Commissioner:

1. Remind Northview Village to follow its internal controls and SSA’s policies and
   procedures over the disbursement of Social Security benefits in those areas where
   we identified weaknesses.

2. Instruct Northview Village to maintain sufficient documentation, including complete
   trust account ledgers and receipts, for all the beneficiaries it serves to support that it
   uses Social Security benefits for the best interest of the beneficiaries.

OTHER MATTERS
Northview Village did not submit the annual Representative Payee Report to SSA to
account for two beneficiaries’ benefits. In addition, Northview Village served as the
unofficial representative payee for 26 beneficiaries.




9
    SSA, POMS, GN 00502.113.C.1 and D.3.b (October 13, 2011).
10
  SSA regulations indicate that representative payees must account for the use of benefits, should keep
records of how benefits were used to complete accounting reports, and must make those records
available upon SSA’s request. 20 C.F.R. §§ 404.2065 and 416.665.
Page 5 – Carolyn L. Simmons

Representative Payee Report

Northview Village did not submit Representative Payee Reports to SSA to show how it
spent $85,211 in benefits on behalf of two beneficiaries. 11 This occurred because
Northview Village did not contact the local field office to inquire when SSA did not send
the annual Representative Payee Report to Northview Village. 12

SSA informed us that it did not provide Northview Village the required Representative
Payee Reports because of an error in its electronic systems. SSA could not tell us
when the problem would be resolved, but it did instruct the local field office to ensure it
sent Northview Village the Representative Payee Reports.

Unofficial Representative Payee for SSA Beneficiaries

During our audit period, Northview Village managed Social Security funds for
63 beneficiaries but SSA did not assign Northview as their official representative payee.
We requested that SSA perform capability determinations on the 63 beneficiaries to
decide if they needed a representative payee to manage their benefits. 13 At the time of
the capability determinations, Northview Village was still managing Social Security
funds for 33 of the 63 beneficiaries. 14

After completing the capability determinations, SSA found 26 (79 percent) of the
33 beneficiaries were incapable of managing or directing the management of their own
benefits and needed a representative payee. The 26 beneficiaries received $157,375 in
Social Security benefits during our audit period. SSA appointed Northview Village as
the representative payee for 25 of these beneficiaries. For the remaining beneficiary,
SSA appointed a relative as the payee.



11
   Representative payees are responsible for keeping records and reporting on the use of benefits by
completing the Representative Payee Report annually for each beneficiary (SSA, POMS,
GN 00605.001.B.1 (November 7, 2008). The use of Social Security funds was not reported to SSA for
6 years (from January 2006 through December 2011) for one beneficiary and 3 years (from January 2009
through December 2011) for the other beneficiary.
12
  SSA, POMS, GN 00502.113.C.1 (October 13, 2011) reads, in part, “. . . a payee’s duties
include . . . keeping detailed and accurate records of how benefits are used in order to provide an
accurate report to SSA when requested . . . .” (italics added).
13
  Whenever a field office receives an allegation or evidence from a medical or lay source, such as
Northview Village, that a capable beneficiary may have become incapable of managing or directing the
management of benefits, the field office can initiate a capability determination. SSA, POMS, GN
00502.001.A.1 (March 16, 2011); GN 00502.020.A (December 4, 2007).
14
  SSA did not do capability determinations on 30 beneficiaries because 11 beneficiaries died and 19
were no longer residing at Northview Village. Capability determinations on the remaining 33 beneficiaries
were performed in January, February, and March 2012.
Page 6 – Carolyn L. Simmons

SSA’s Guide for Organizational Representative Payees clearly states, “. . . if you have a
beneficiary in your care who is receiving Social Security, and/or SSI benefits who loses
the ability to manage money, you should promptly report this to SSA.” 15 Northview
Village did not report changes in the beneficiaries’ capability to SSA. Instead,
Northview Village acted as the beneficiaries’ unofficial payee without having to account
for the benefits it received on the beneficiaries’ behalf.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D). With regard to corrective
actions, SSA stated that in August 2012, its field office staff in St. Louis, Missouri, would
meet with Northview Village to ensure full implementation of our recommendations.




                                                 Patrick P. O’Carroll, Jr.




15
     SSA, Guide for Organizational Representative Payees 2008 (No. 17-013), page 7.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
C.F.R.              Code of Federal Regulations
Northview Village   Northview Village, Inc.
OASDI               Old-Age, Survivors and Disability Insurance
OIG                 Office of the Inspector General
PII                 Personally Identifiable Information
POMS                Program Operations Manual System
SSA                 Social Security Administration
SSI                 Supplemental Security Income
U.S.C.              United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using Social Security benefits to serve the
beneficiary’s best interests. The responsibilities include the following. 1

     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

     Maintain accounting records of how the benefits are received and used.

     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

     Report any changes in circumstances that would affect their performance as a
      representative payee.

     Provide SSA an annual Representative Payee Report (Form SSA-623) to account
      for benefits spent and invested.

     Return any payments to SSA to which the beneficiary is not entitled.

     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

     Be aware of other income Supplemental Security Income recipients may have, and
      monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035 and 416.635.
                                                                       Appendix C

Scope and Methodology
Our audit covered the period May 1, 2010 to April 30, 2011. To accomplish our
objectives, we:

•   Reviewed applicable Federal laws and regulations as well as Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Communicated with the SSA Kansas City Regional Office and the St. Louis,
    Missouri, field office to obtain background information and prior audits regarding
    Northview Village, Inc (Northview Village).

•   Compared and reconciled the payee’s list of SSA beneficiaries in Northview Village’s
    care to a list obtained from SSA’s Representative Payee System.

•   Reviewed Northview Village’s internal controls over the receipt and disbursement of
    Social Security benefits.

•   Selected a random sample of 50 beneficiaries in the representative payee’s care
    during the audit period and performed the following tests.

    o Compared and reconciled benefit amounts received according to Northview
      Village’s records to benefit amounts paid according to SSA’s records.

    o Reviewed Northview Village’s accounting records to determine whether benefits
      were properly spent or conserved on the individual’s behalf.

    o Traced all recorded expenses to available source documents and examined the
      documentation for reasonableness and authenticity.

•   Reconciled bank records and Northview Village’s records for April 2011.

•   Interviewed nine beneficiaries and talked with the Northview Village caseworkers
    about three additional beneficiaries who were ill and unable to be interviewed to
    determine whether their basic needs were being met. We also observed their living
    conditions.

•   Reviewed the current Representative Payee Reports (Form SSA-623) for
    36 beneficiaries to determine whether Northview Village properly reported to SSA
    how their benefits were used.




                                            C-1
•   Reviewed data extracts from SSA’s systems to determine whether payments were
    sent to Northview Village when Northview Village was not the beneficiary’s official
    representative payee.

We performed our fieldwork for this review in St. Louis and Kansas City, Missouri,
between September 2011 and March 2012. We tested the data obtained for our audit
and determined them to be sufficiently reliable to meet our objective. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                           C-2
                                                                         Appendix D

Agency Comments
Tuesday, June 05, 2012
Signed Draft Report (A-07-11-01137) - Kansas City Response


To:             Inspector General

From:           Regional Commissioner
                Kansas City

Subject:        Signed Draft Report (A-07-11-01137) - Response

Thank you for the opportunity to review the draft report: Northview Village, A Fee-for-
Service Representative Payee for the Social Security Administration. Our responses to
the individual audit recommendations are below.

Recommendation 1 – Remind Northview Village to follow its internal controls and the
SSA’s policies and procedures over the disbursement of Social Security benefits in
those areas where we identified weaknesses.

•     We agree with this recommendation. The field office will perform an educational visit
      with Northview Village in August 2012 and remind Northview Village to follow its
      internal controls and SSA’s policies and procedures for Social Security benefits.

Recommendation 2 – Instruct Northview Village to maintain sufficient documentation,
including complete trust account ledgers and receipts, for all the beneficiaries it serves
to support that it uses Social Security benefits for the best interest of the beneficiaries.

•     We agree with this recommendation. The field office will work with Northview Village
      to ensure the organization understands their responsibilities and will instruct
      Northview Village to maintain sufficient documentation, including complete trust
      account ledgers and receipts, for all the beneficiaries it serves.

If you have any questions, please contact me at 816-936-5700. If members of your staff
need additional information, they may contact Kathy Smith, Center for Programs
Support, at 816-936-5643.


                                    Carolyn L. Simmons
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Mark Bailey, Director, Kansas City Audit Division
    Ken Bennett, Information Technology Specialist

Acknowledgments

In addition to those named above:

    Carol Cockrell, Evaluator

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-07-11-01137.
                          DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
  House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
